                                              SINGLE AUDIT
                                              QUALITY CONTROL REVIEW


Office of Inspector General—Office of Audit




                                              QUALITY CONTROL REVIEW:
                                              SINGLE AUDIT OF THE JOB SERVICE
                                              NORTH DAKOTA FINANCIAL REPORT FOR
                                              THE YEARS ENDING JUNE 30, 2005 AND
                                              2004




                                                             Date Issued: December 09, 2008
                                                             Report Number: 24-09-001-03-390
                                       U.S. Department of Labor – Office of Inspector General
                                                                                 Draft Report

U.S. Department of Labor                 Office of Inspector General
                                         Washington, DC 20210




December 09, 2008


                        Assistant Inspector General’s Report

Ms. Maureen L. Daley
Executive Director
Job Service North Dakota
1000 E. Divide Avenue
Bismarck, ND 58506-5507

Dear Ms. Daley:

The purpose of this report is to formally advise you of the results of a Quality Control
Review (QCR) the U.S. Department of Labor (DOL), Office of Inspector General (OIG),
conducted of the following audit completed by EideBailly, LLP (the Firm), under the
Federal Single Audit Act and Office of Management and Budget (OMB) Circular A-133
(A-133):

      Single Audit of the Job Service North Dakota Financial Report for the
      Years Ending June 30, 2005 and 2004

The objectives of the QCR were to determine whether: (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements, (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention.

Our review included the following major programs:

                                                       Catalog of Federal Domestic
                   Program                             Assistance (CFDA) Number
 Unemployment Insurance                                17.225
 Trade Adjustment Assistance-Workers                   17.245
                                                       17.207 (Employment Service)
 Employment Service Cluster                            17.801 (Disabled Veterans’
                                                               Outreach Program)
                                                       17.804 (Local Veterans’
                                                               Employment
                                                               Representative Program)
 Transition Assistance Program                         17.807



                                                                            Quality Control Review
                                                                          Job Service North Dakota
                                                                  Report Number: 24-09-001-03-390
                                       U.S. Department of Labor – Office of Inspector General

We determined that the audit work performed was not acceptable and did not meet the
requirements of the Single Audit Act and A-133. Additional work is required to bring this
audit into compliance with the requirements of the Single Audit Act. Specifically, the
Firm needs to: (1) appropriately organize the documentation associated with this audit
to provide a clear link to the findings, conclusions, and recommendations; (2) report the
lack of controls to detect the two material misstatements as material control
weaknesses and reissue its report; (3) document the conclusions why internal control
deficiencies in the management letter are not reportable conditions; and (4) include all
relevant details regarding reportable conditions in the report and management letter;
and (5) adequately document its understanding and testing of internal controls for the
audit.

We also noted issues requiring management’s attention to improve the quality of future
audits. Specifically, the Firm needs to: (1) maintain audit documentation pertaining to
the effect of computer processing on the nature, timing, and extent of auditing
procedures in accordance with Generally Accepted Government Auditing Standards
(GAGAS) requirements; (2) take advantage of a tool to verify completeness and
classification of revenues and expenditures; (3) disclose all reportable conditions that
could have a direct and material effect on the determination of financial statement
amounts as required; (4) document its conclusions relating to internal control
deficiencies; (5) report internal control deficiencies in accordance with GAGAS; (6)
accurately report its planning and testing of major programs; and (7) adequately
document its understanding and testing of the major programs’ internal controls and
compliance requirements.

The Firm took action to address the noted deficiencies and to improve the quality of
future audits. Details on the results of our review are provided in the Enclosure.


Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

Enclosure

cc: Barbara Aasen, Partner, EideBailly, LLP

   Judith A. Fisher, Director, Division of Policy, Review, and Resolution,
    Employment and Training Administration


                                            2                        Quality Control Review
                                                                   Job Service North Dakota
                                                           Report Number: 24-09-001-03-390
                                       U.S. Department of Labor – Office of Inspector General


                                                                                Enclosure

                              Quality Control Review:
                    Single Audit of the Job Service North Dakota
                                  Financial Report
                    For the Years Ending June 30, 2005 and 2004
                                 (24-09-001-03-390)

Introduction

The Single Audit Act of 1984, as amended by the Single Audit Act Amendments of
1996, created a single organization-wide financial and compliance audit for state and
local governments, colleges, universities, and not-for-profit organizations that expend
Federal funds equal to or greater than $300,000 in any fiscal year ($500,000 for fiscal
years ending after December 31, 2003).

On September 2, 2005, the Firm issued a single audit report of the Job Service North
Dakota Financial Report for the Years Ending June 30, 2005 and 2004.

We performed a QCR of the above referenced audit. Our review included the following
major programs:


                   Program                                   CFDA Number
 Unemployment Insurance                            17.225
 Trade Adjustment Assistance-Workers               17.245
                                                   17.207 (Employment Service)
 Employment Service Cluster                        17.801 (Disabled Veterans’
                                                           Outreach Program)
                                                   17.804 (Local Veterans’
                                                           Employment
                                                           Representative Program)
 Transition Assistance Program                     17.807

Objectives

The objectives of the QCR were to determine whether: (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements, (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention.

Results

We determined that the audit work performed was not acceptable and did not meet the
requirements of the Single Audit Act and A-133. Additional work is required to bring this


                                            3                        Quality Control Review
                                                                   Job Service North Dakota
                                                           Report Number: 24-09-001-03-390
                                        U.S. Department of Labor – Office of Inspector General


audit into compliance with the requirements of the Single Audit Act. Specifically, the
Firm needs to: (1) appropriately organize the documentation associated with this audit
to provide a clear link to the findings, conclusions, and recommendations; (2) report the
lack of controls to detect the two material misstatements as material control
weaknesses and reissue its report; (3) document the conclusions why internal control
deficiencies in the management letter are not reportable conditions; and (4) include all
relevant details regarding reportable conditions in the report and management letter;
and (5) adequately document its understanding and testing of internal controls for the
audit.

We also noted issues requiring management’s attention to improve the quality of future
audits. Specifically, the Firm needs to: (1) maintain audit documentation pertaining to
the effect of computer processing on the nature, timing, and extent of auditing
procedures in accordance with GAGAS requirements; (2) take advantage of a tool to
verify completeness and classification of revenues and expenditures; (3) disclose all
reportable conditions that could have a direct and material effect on the determination of
financial statement amounts as required; (4) document its conclusions relating to
internal control deficiencies; (5) report internal control deficiencies in accordance with
GAGAS; (6) accurately report its planning and testing of major programs; and (7)
adequately document its understanding and testing of the major programs’ internal
controls and compliance requirements.


Planning and Supervision

1. The Firm did not maintain audit documentation as required by GAGAS.

The Firm did not maintain audit documentation pertaining to the effect of computer
processing on the nature, timing, and extent of auditing procedures in accordance with
GAGAS requirements. Specifically, the Firm did not maintain audit documentation
prepared by its information technology (IT) auditors with the audit documentation related
to the audit. The IT auditors’ documentation primarily consisted of four folders of
unbound auditee-prepared and auditors’ handwritten notes with no index or numbering
schema. We were unable to identify the supporting documentation for the IT auditors’
findings contained in the management letter. The Firm said that IT auditors did not
follow Firm policy which was to follow GAGAS and American Institute of Certified Public
Accountants (AICPA) guidance on preparation of audit documentation.

GAGAS, 2003 Revision, paragraphs 4.22 through paragraph 4.24, provide that audit
documentation for financial audits performed in accordance with GAGAS should contain
sufficient information to enable an experienced auditor who has had no previous
connection with the audit to ascertain from the audit documentation the evidence that
supports the auditors’ significant judgments and conclusions.




                                            4                         Quality Control Review
                                                                    Job Service North Dakota
                                                            Report Number: 24-09-001-03-390
                                        U.S. Department of Labor – Office of Inspector General


AICPA standards and GAGAS require auditors to prepare and maintain audit
documentation. The information contained in audit documentation constitutes the
principal record of the work that the auditors have performed in accordance with
professional standards and the conclusions that the auditors have reached. The
preparation of audit documentation should be appropriately detailed to provide a clear
understanding of its purpose and source and the conclusions the auditors reached, and
it should be appropriately organized to provide a clear link to the findings, conclusions,
and recommendations contained in the audit report.

As a result, the audit documentation did not provide support for the auditors report as it
related to the management letter referred to in the Report on Internal Controls Over
Financial Reporting and on Compliance and Other Matters Based on an Audit of
Financial Statements Performed in Accordance with Government Auditing Standards.

Single Audit Requirements

2. The Firm did not use an available tool to test revenues and expenditures.

The Firm did not take advantage of a tool to verify completeness and classification of
revenues and expenditures. Although, the Firm believed that it was doing adequate
testing to verify revenues and expenditures, it did not make use of the U.S. Department
of Health and Human Services (HHS) Payment Management System to obtain grant
payment information. Use of the HHS Payment Management System is a “Best
Practice”. The Firm was not aware of the automated Payment Management System
tool and did not have procedures in its audit guide to use the system.

AICPA Audit Guide - Government Auditing Standards and Circular A-133 Audits,
paragraph 7.04, states:

       In assessing the appropriateness and completeness of the auditee’s
       identification of federal programs in the schedule, the auditor should
       consider, among other matters, evidence obtained from audit procedures
       performed to evaluate the completeness and classification of recorded
       revenues and expenditures. This may include sending confirmations to
       granting federal agencies or pass-through entities in an audit of a
       subrecipient.

The HHS Program Support Center’s web site on audit confirmation procedures states:
“The Payment Management System allows the recipient to provide the auditor with
confirmation of grant payments during on-site audits.”

Use of the Payment Management System will bring a greater degree of assurance to
audit conclusions and reduce audit risk.




                                             5                        Quality Control Review
                                                                    Job Service North Dakota
                                                            Report Number: 24-09-001-03-390
                                        U.S. Department of Labor – Office of Inspector General


Reporting

3. The Firm did not report internal control weaknesses as required.

The Firm did not disclose all reportable conditions that could have a direct and material
effect on the determination of financial statement amounts as required. Specifically, the
Firm’s Report on Internal Controls Over Financial Reporting did not include internal
control weaknesses that failed to detect two needed material adjustments to the
auditee’s records. The Firm prepared a management letter, referred to in its report,
which stated, in part:

      …professional standards define an audit adjustment as a proposed
      correction of the financial statements that, in our judgment, may not have
      been detected except through our auditing procedures. An audit
      adjustment may or may not indicate matters that could have a significant
      effect on the Agency’s financial reporting process. We noted two audit
      adjustments that we considered material to the financial statements and
      were recorded by the Agency:

      1. An overstatement of unemployment receivable which resulted in
         overstating assets, revenues and net assets in the business-type
         activities of the propriety fund by $1,204,709.

      2. An error in recording work-in-progress which resulted in an
         overstatement of loss on disposal of fixed assets and an
         understatement of the economic development and assistance function
         expenses in the government-wide statement of activities by $437,729.

In its Report on Internal Control Over Financial Reporting, the Firm stated, in part:
“…We noted no matters involving the internal control over financial reporting and its
operation that we consider to be material weaknesses.…”

The Firm said the engagement personnel considered these instances to be isolated
errors and did not consider the lack of controls to identify the errors to be a reportable
condition or material weakness. The Firm said that, based on new auditing standards
issued since the period of the audit, if the same circumstances occurred it would classify
the conditions noted as a material control weakness.

GAGAS, paragraph 5.13, states, in part:

      For all financial audits, auditors should report deficiencies in internal
      control considered to be reportable conditions as defined in AICPA
      standards. AICPA standards define reportable conditions as significant
      deficiencies in the design or operation of internal control that could
      adversely affect the entity’s ability to record, process, summarize, and


                                            6                         Quality Control Review
                                                                    Job Service North Dakota
                                                            Report Number: 24-09-001-03-390
                                         U.S. Department of Labor – Office of Inspector General


       report financial data consistent with the assertions of management in the
       financial statements.…

GAGAS, paragraph 5.14, states, in part:

       When reporting deficiencies in internal control, auditors should identify
       those reportable conditions that are individually or in the aggregate
       considered to be material weaknesses. The AICPA standards define a
       material weakness as a reportable condition in which the design or
       operation of one or more of the internal control components does not
       reduce to a relatively low level the risk that misstatements caused by error
       or fraud in amounts that would be material in relation to the financial
       statements being audited may occur and not be detected within a timely
       period by employees in the normal course of performing their assigned
       functions…

Since the internal control weaknesses were not included in the auditors’ report, DOL
managers were not made aware of the deficiencies so they could perform their
regulatory oversight.

4. The Firm did not document conclusion on internal control deficiencies.

The Firm did not document its conclusions relating to internal control deficiencies noted
in a management letter it provided to the auditee. Specifically, the management letter
included 26 internal control deficiencies that either should have been reported as
reportable conditions, or the audit documentation should have explained why the
deficiencies were not determined to be reportable conditions. If the auditor concludes a
matter that could appear to be a reportable condition is not, the auditor should
document that conclusion. The Firm did not verify during its supervisory reviews that
conclusions were documented regarding whether identified deficiencies were or were
not reportable conditions.

OMB Circular A-133, Subpart E – Auditors, Section 510 – Audit Findings, describes the
kinds of audit findings that the auditor shall report. If the audit work indicates these kinds
of audit findings exist, they should be reported.

Further, GAGAS, paragraph 4.22, states, in part:

       Audit documentation related to planning, conducting, and reporting on the
       audit should contain sufficient information to enable an experienced
       auditor who has had no previous connection with the audit to ascertain
       from the audit documentation the evidence that supports the auditors’
       significant judgments and conclusions…




                                              7                        Quality Control Review
                                                                     Job Service North Dakota
                                                             Report Number: 24-09-001-03-390
                                         U.S. Department of Labor – Office of Inspector General


The lack of documented conclusions as to why an internal control deficiency is or is not
a reportable condition raises questions regarding the appropriateness of the audit
conclusions.

5. The Firm did not follow GAGAS for reporting deficiencies in internal controls.

The Firm reported 26 findings in a management letter that lacked the required GAGAS
reporting elements of cause, effect and criteria. The Firm did not consider GAGAS
reporting elements to be applicable to management letters. Our review of the Firm’s
audit guide found that it did not require inclusion of reporting elements for findings
presented in management letters.

GAGAS, paragraph 5.15, states, in part:

       To the extent possible, in presenting audit findings such as deficiencies in
       internal control, auditors should develop the elements of criteria, condition,
       cause, and effect to assist management or oversight officials of the
       audited entity in understanding the need for taking corrective action.…

GAGAS, paragraph 5.16, states, in part:

       When auditors detect deficiencies in internal control that are not reportable
       conditions, they should communicate those deficiencies separately in a
       management letter to officials of the audited entity unless the deficiencies
       are clearly inconsequential.…

Lack of the reporting finding elements mitigates the importance of the findings and does
not assist the audited entity’s management and oversight officials to understand the
reason corrective action is needed.

Internal Control and Compliance for Major Programs

6. The Firm misreported coverage of a Federal program.

The Firm did not accurately report its planning and testing of a major program.
Specifically, the Firm reported it tested controls and compliance requirements for one
program when it did not. Specifically, the Firm incorrectly identified the Transition
Assistance Program, CFDA 17.807, as a major program on the Schedule of Findings
and Questioned Costs. The error occurred as a result of the auditors mistakenly
identifying the program as part of the employment services CFDA cluster; and the Firm
did not verify the correct identification of CFDA clusters during its supervisory review of
audit documentation.




                                             8                         Quality Control Review
                                                                     Job Service North Dakota
                                                             Report Number: 24-09-001-03-390
                                       U.S. Department of Labor – Office of Inspector General


OMB Circular A-133, Subpart E – Auditors, Section 505 – Audit Reporting, paragraph
(d)(1)(vii) requires major programs to be reported in the Schedule of Findings and
Questioned Costs.

As a result, the Firm’s report on compliance included an opinion for a program that was
not audited. Though inadvertent, such errors could be serious because users may rely
on the audit report and the auditor’s opinion on a program when the program was not
audited. Because the amount was negligible--only $21,536 of the $27,631,360 the
auditee received--it is unlikely any undue reliance was placed on the audit report.

7. The Firm did not adequately document its understanding and testing of
   internal controls and compliance requirements for major programs.

The Firm did not adequately document its understanding and testing of the major
programs’ internal controls and compliance requirements. Of the 30 applicable
compliance requirements, the Firm did not clearly document in the appropriate section
of the audit file its:

   •    Understanding of internal controls for 11 compliance requirements it deemed not
        applicable; or
   •    Testing of two compliance requirements.

The table below details the number of applicable requirements and the exceptions
noted.

                                    Number of      Understanding         Testing
                                     applicable      of internal       requirement
Program               CFDA          compliance      controls not        not clearly
                     Number        requirements        clearly         documented
                                                    documented
Unemployment          17.225            11                4                  1
Insurance
Trade                 17.245            10                4                  0
Adjustment
Assistance-
Workers
Employment            17.207             9                3                  1
Service
Cluster               17.801

                      17.804

       Total                            30                11                 2




                                             9                       Quality Control Review
                                                                   Job Service North Dakota
                                                           Report Number: 24-09-001-03-390
                                       U.S. Department of Labor – Office of Inspector General


However, we either found evidence elsewhere in the audit documentation or the Firm
explained why the 11 compliance requirements were not applicable. The Firm also
identified testing for the two compliance requirements elsewhere in the audit
documentation. The Firm attributed the inadequate documentation to an oversight.

OMB Circular A-133 Subpart E – Auditors, Section 500 – Scope of audit, paragraph (c),
requires that the auditor perform procedures to obtain an understanding of internal
control over compliance for Federal programs sufficient to plan the audit to support a
low assessed level of control risk and to perform testing of internal controls.

GAGAS, paragraphs 4.22 through 4.24, provide that audit documentation for financial
audits performed in accordance with GAGAS should contain sufficient information to
enable an experienced auditor who has had no previous connection with the audit to
ascertain from the audit documentation the evidence that supports the auditors’
significant judgments and conclusions. AICPA standards and GAGAS require auditors
to prepare and maintain audit documentation. The information contained in audit
documentation constitutes the principal record of the work that the auditors have
performed in accordance with professional standards and the conclusions that the
auditors have reached. The preparation of audit documentation should be appropriately
detailed to provide a clear understanding of its purpose and source and the conclusions
the auditors reached, and it should be appropriately organized to provide a clear link to
the findings, conclusions, and recommendations contained in the audit report.

The lack of adequately documenting the auditors’ understanding of internal controls for
compliance requirements and testing of those requirements raises questions regarding
whether the auditor understood the internal controls and tested the requirements.

Recommendations

We recommend the Firm:

   1. Organize the documentation associated for this and future A-133 audits to
      provide a clear link to the findings, conclusions, and recommendations.

   2. Include in future A-133 audit guides the requirement to use the Payment
      Management System to confirm grant payments. Use of this tool is not a
      requirement.

   3. Report the lack of controls to detect the two material misstatements as material
      control weaknesses and reissue its report and, for future A-133 audits, report
      internal control deficiencies in accordance with GAGAS.

   4. Document the conclusions why internal control deficiencies in the management
      letter were not reportable conditions and, for future A-133 audits, verify the
      existence of the conclusions during reviews of audit documentation.


                                            10                       Quality Control Review
                                                                   Job Service North Dakota
                                                           Report Number: 24-09-001-03-390
                                       U.S. Department of Labor – Office of Inspector General




   5. Include all relevant details regarding reportable conditions in the report and
      management letter and, for future A-133 audits, revise audit procedures to
      ensure all relevant details regarding reportable conditions and all elements of
      findings are included in management letters.

   6. Correctly report major programs and, for future A-133 audits, emphasize the
      correct identification of CFDA clusters during supervisory review of audit
      documentation.

   7. Adequately document its understanding and testing of internal controls for the
      audit and, for future A-133 audits, prepare documentation so that it provides a
      clear understanding of its purpose and conclusions reached.

Firm’s Response

The Firm agreed with the recommendations, and took action to address the noted
deficiencies and to improve the quality of future audits.

OIG’s Conclusion

We consider the recommendations resolved and closed.




                                            11                       Quality Control Review
                                                                   Job Service North Dakota
                                                           Report Number: 24-09-001-03-390
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              12                        Quality Control Review
                                      Job Service North Dakota
                              Report Number: 24-09-001-03-390
             U.S. Department of Labor – Office of Inspector General




Appendices




                 13                        Quality Control Review
                                         Job Service North Dakota
                                 Report Number: 24-09-001-03-390
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              14                        Quality Control Review
                                      Job Service North Dakota
                              Report Number: 24-09-001-03-390
                                        U.S. Department of Labor – Office of Inspector General


                                                                                Appendix A
Background

The Single Audit Act of 1984 established consistent and uniform entity-wide audit
requirements for state and local governments receiving Federal financial assistance. The
single audit is the primary mechanism used by Federal agencies to ensure accountability
for Federal awards. Audits performed under the Single Audit Act are intended to satisfy all
Federal agencies providing assistance to the entity. The act was amended in 1996 by
Public Law 104-156, raising the threshold for single audit to $300,000 in Federal
assistance. The June 27, 2003, revision to A-133 raised this threshold to $500,000 for
fiscal years ending after December 31, 2003.

QCRs are performed to provide evidence of the reliability of single audits to the auditors
of Federal agency financial statements, such as those required by the Chief Financial
Officers Act, those responsible for the programs, and others. We performed a QCR of
the single audit of the Job Service North Dakota Financial Report for the Years Ending
June 30, 2005 and 2004, performed by EideBailly, LLP.

Job Service North Dakota became part of government when a public labor exchange
was created in 1935 with the signing of the Social Security Act. Through the years, Job
Service North Dakota’s role in providing unemployment insurance, job placement, job
training and labor market information services to the public has continued to expand. It
continues to provide numerous services to both job seekers and employers. For the
year ending June 30, 2005, Job Service North Dakota expended about $27.6 million in
Federal funds, of which $24.4 million was attributable to DOL.




                                            15                        Quality Control Review
                                                                    Job Service North Dakota
                                                            Report Number: 24-09-001-03-390
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              16                        Quality Control Review
                                      Job Service North Dakota
                              Report Number: 24-09-001-03-390
                                       U.S. Department of Labor – Office of Inspector General


                                                                          Appendix B
Objectives, Scope, Methodology and Criteria

Objectives

Our objectives were to determine whether:

   1. the audit was conducted in accordance with applicable standards and met the
      single audit requirements;

   2. any follow-up work is needed; and

   3. there are any issues that may require management’s attention.

Scope

We performed a QCR of the single audit of the Job Service North Dakota Financial
Report for the Years Ending June 30, 2005 and 2004, at the offices of EideBailly, LLP,
located at 1050 E. Interstate Avenue, Bismarck, North Dakota, from June 2, 2008 to
June 6, 2008.

Our review included the following major programs:


                   Program                                   CFDA Number
 Unemployment Insurance                            17.225
 Trade Adjustment Assistance-Workers               17.245
                                                   17.207 (Employment Service)
 Employment Service Cluster                        17.801 (Disabled Veterans’
                                                           Outreach Program)
                                                   17.804 (Local Veterans’
                                                           Employment
                                                           Representative Program)
 Transition Assistance Program                     17.807

Methodology

Using the President’s Council on Integrity and Efficiency Uniform QCR Guide for A-133
Audits, we reviewed audit documentation and held discussions with the Firm’s partners
and audit manager to accomplish the required steps. The Guide was developed to test
for compliance with GAGAS general and fieldwork standards and A-133 requirements.
Specifically, we reviewed:
    • Competence
    • Independence


                                            17                       Quality Control Review
                                                                   Job Service North Dakota
                                                           Report Number: 24-09-001-03-390
                                       U.S. Department of Labor – Office of Inspector General


   •   Professional Judgment
   •   Quality Control
   •   Planning and Supervision
   •   Management Representations
   •   Litigation, Claims and Assessments
   •   Possible Fraud or Illegal Acts
   •   Determination of Major Programs
   •   Schedule of Expenditures of Federal Awards
   •   Audit Follow-up
   •   Reporting
   •   Internal Control Over Major Programs
   •   Data Collection Form

We also reviewed the Firm's peer review applicable to the period of the audit.

Criteria

Generally Accepted Government Auditing Standards

Guidance on GAGAS Requirements for Continuing Professional Education

Single Audit Act of 1984

Single Audit Act Amendments of 1996

OMB Circular A-133




                                            18                       Quality Control Review
                                                                   Job Service North Dakota
                                                           Report Number: 24-09-001-03-390
                                    U.S. Department of Labor – Office of Inspector General


                                                                            Appendix C
Acronyms and Abbreviations


  A-133    Office of Management and Budget Circular A-133

  AICPA    American Institute of Certified Public Accountants

  CFDA     Catalog of Federal Domestic Assistance

  DOL      Department of Labor

  Firm     EideBailly, LLP

  GAGAS Generally Accepted Government Auditing Standards

  HHS      U.S. Department of Health and Human Services

  IT       Information Technology

  OIG      Office of Inspector General

  OMB      Office of Management and Budget

  QCR      Quality Control Review




                                         19                       Quality Control Review
                                                                Job Service North Dakota
                                                        Report Number: 24-09-001-03-390
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              20                        Quality Control Review
                                      Job Service North Dakota
                              Report Number: 24-09-001-03-390
                                 U.S. Department of Labor – Office of Inspector General


                                                                         Appendix D
Independent Public Accountant Response To Draft Report




                                     21                        Quality Control Review
                                                             Job Service North Dakota
                                                     Report Number: 24-09-001-03-390
U.S. Department of Labor – Office of Inspector General




    22                        Quality Control Review
                            Job Service North Dakota
                    Report Number: 24-09-001-03-390
